<html>
<title> - [H.A.S.C. No. 115-7] DEPARTMENT OF DEFENSE INSPECTOR GENERAL REPORT ``INVESTIGATION ON ALLEGATIONS RELATING TO USCENTCOM INTELLIGENCE PRODUCTS''</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]







 
                          [H.A.S.C. No. 115-7]

                    DEPARTMENT OF DEFENSE INSPECTOR

                   GENERAL REPORT ``INVESTIGATION ON

       ALLEGATIONS RELATING TO USCENTCOM INTELLIGENCE PRODUCTS''

                               __________

                                HEARING

                               BEFORE THE

              SUBCOMMITTEE ON OVERSIGHT AND INVESTIGATIONS

                                 OF THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD

                           FEBRUARY 28, 2017
                           
                           
                           
                           
                           
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




                                     
                             ________

                 U.S. GOVERNMENT PUBLISHING OFFICE
                   
 24-679                   WASHINGTON : 2017       
____________________________________________________________________
 For sale by the Superintendent of Documents, U.S. Government Publishing Office,
Internet:bookstore.gpo.gov. Phone:toll free (866)512-1800;DC area (202)512-1800
  Fax:(202) 512-2104 Mail:Stop IDCC,Washington,DC 20402-001   


                                     
  


              SUBCOMMITTEE ON OVERSIGHT AND INVESTIGATIONS

                  VICKY HARTZLER, Missouri, Chairwoman

K. MICHAEL CONAWAY, Texas            SETH MOULTON, Massachusetts
MATT GAETZ, Florida                  TOM O'HALLERAN, Arizona
JIM BANKS, Indiana                   THOMAS R. SUOZZI, New York
LIZ CHENEY, Wyoming                  (Vacancy)
AUSTIN SCOTT, Georgia
             Christopher Bright, Professional Staff Member
                       Barron YoungSmith, Counsel
                         Anna Waterfield, Clerk
                         
                         
                         
                         
                            C O N T E N T S

                              ----------                              
                                                                   Page

              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Hartzler, Hon. Vicky, a Representative from Missouri, Chairwoman, 
  Subcommittee on Oversight and Investigations...................     1
Moulton, Hon. Seth, a Representative from Massachusetts, Ranking 
  Member, Subcommittee on Oversight and Investigations...........     2

                               WITNESSES

Fine, Hon. Glenn A., Acting Inspector General, Department of 
  Defense........................................................     3
Grimes, Jacques T., Director, Defense Analysis, Office of the 
  Under Secretary of Defense for Intelligence....................    10
Marrs, Maj Gen James, USAF, Director for Intelligence, Joint 
  Staff..........................................................     8
Quantock, MG Mark R., USA, Director of Intelligence, U.S. Central 
  Command........................................................     9
Wiley, Neil R., Director, Defense Analysis, Defense Intelligence 
  Agency.........................................................    11

                                APPENDIX

Prepared Statements:

    Fine, Hon. Glenn A...........................................    25
    Grimes, Jacques T., joint with Mr. Neil R. Wiley, Maj Gen 
      James Marrs, and MG Mark R. Quantock.......................    36
    Hartzler, Hon. Vicky.........................................    21
    Moulton, Hon. Seth...........................................    23

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    [There were no Questions submitted during the hearing.]

Questions Submitted by Members Post Hearing:

    [There were no Questions submitted post hearing.]
   DEPARTMENT OF DEFENSE INSPECTOR GENERAL REPORT ``INVESTIGATION ON 
       ALLEGATIONS RELATING TO USCENTCOM INTELLIGENCE PRODUCTS''

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
              Subcommittee on Oversight and Investigations,
                        Washington, DC, Tuesday, February 28, 2017.
    The subcommittee met, pursuant to call, at 3:32 p.m., in 
room 2118, Rayburn House Office Building, Hon. Vicky Hartzler 
(chairwoman of the subcommittee) presiding.

OPENING STATEMENT OF HON. VICKY HARTZLER, A REPRESENTATIVE FROM 
      MISSOURI, CHAIRWOMAN, SUBCOMMITTEE ON OVERSIGHT AND 
                         INVESTIGATIONS

    Mrs. Hartzler. Welcome. Good afternoon. I am delighted to 
convene the first Oversight Investigation Subcommittee hearing 
for the 115th Congress.
    Before I turn to the topic of today's hearing and introduce 
our witnesses, I want to welcome our new ranking member and the 
others who are joining the subcommittee for the first time, who 
will be coming shortly, we are sure.
    In recent years, this subcommittee has been engaged in a 
wide variety of important national security topics. I am eager 
to work with all of you to ensure we continue to exercise our 
constitutional responsibilities to help to oversee the 
Department of Defense [DOD].
    I am happy to have Mr. Moulton as the subcommittee's 
ranking member, and I look forward to his important 
contributions to our work.
    I am also pleased that we are joined this year by Mr. 
Gaetz, Mr. Banks, Ms. Cheney, Mr. O'Halleran, and Mr. Suozzi. 
They are new to this committee. And our returning members are 
Mr. Conaway and Mr. Scott. So I look forward to their keen 
insights.
    Now, for today's hearing, we are also joined by or probably 
will be joined by one or more committee members who are not 
members of the subcommittee. And for any members of the full 
committee who are not permanent members of the subcommittee who 
are or will be attending, I ask unanimous consent that they be 
permitted to participate in this hearing with the understanding 
that all sitting subcommittee members will be recognized for 
questions prior to those not assigned to this subcommittee.
    Without objection, so ordered.
    Today's hearing topic is especially timely. Three weeks 
ago, the Department of Defense Inspector General [IG] released 
a report about allegations that leadership within U.S. Central 
Command [CENTCOM] improperly manipulated intelligence products 
that led to an inaccurate understanding of the U.S. campaign 
against ISIS [Islamic State of Iraq and Syria].
    As a consequence, 30 professionals in the Inspector 
General's Office undertook an inquiry into this matter. They 
conducted 152 interviews at CENTCOM and reviewed thousands of 
pages of materials over the course of many months. Although the 
report did not find systemic or intentional distortion of 
intelligence or evidence of misconduct, the IG did conclude 
that CENTCOM intelligence products could have and should have 
been better.
    The report also found a very challenging command climate at 
CENTCOM and identified several process and procedural issues 
which the IG believed impeded the intelligence analysis 
process. The inspector general proffered 29 specific 
recommendations for improvements and discussed the need to 
implement corrective action.
    I look forward to hearing from our witnesses and learning 
about the changes that have been made in response to the report 
and the progress we can expect. I look forward to discussing 
these issues with the two panels today.
    Before I introduce our first witness, I turn to the 
Oversight and Investigations Subcommittee ranking member for 
any opening remarks that he would like to make.
    [The prepared statement of Mrs. Hartzler can be found in 
the Appendix on page 21.]

     STATEMENT OF HON. SETH MOULTON, A REPRESENTATIVE FROM 
 MASSACHUSETTS, RANKING MEMBER, SUBCOMMITTEE ON OVERSIGHT AND 
                         INVESTIGATIONS

    Mr. Moulton. Thank you, Chairwoman Hartzler. It is an honor 
to be here, and I very much look forward to our work together. 
So thank you so much for welcoming me.
    And I would like to just take a quick moment to also 
recognize a couple new Democratic members on the Oversight and 
Investigations Subcommittee: Tom O'Halleran of Arizona and Tom 
Suozzi of New York. So we are bringing you two Toms in addition 
to myself.
    I came to Washington promising to work across the aisle and 
to make sure that we in Congress never flinch when it comes to 
asking the difficult questions about what it takes to ensure 
our national security. I believe we will do an excellent job 
working together in that spirit and in the bipartisan tradition 
of this committee.
    In the United States, our policymakers and service members 
rely on intelligence analysis to make critical strategic, 
operational, and tactical decisions every day, some life or 
death. So it is imperative that we have adequate safeguards in 
place to ensure they receive objective, empirically based 
reporting on which is ground truth.
    For that reason, when allegations arose last year about 
manipulation of intelligence at United States Central Command, 
Congress encouraged the DOD Inspector General to conduct a 
thorough investigation and report back with recommendations. 
The inspector general conducted an exhaustive investigation 
involving 152 interviews of 120 witnesses, reviews of millions 
of emails, 425,000 documents, and 140 finished intelligence 
products.
    In its final report, they did not find evidence that 
intelligence was falsified or intentionally distorted or that 
intelligence processes resulted in false narrative or systemic 
distortion; however, the IG did find evidence of issues that 
are concerning to the committee, including some that the 
chairwoman already mentioned.
    These include a poor command climate, low morale, and 
ineffective communication and guidance that produced a 
perception among analysts that the integrity of the process was 
questionable. These findings demonstrate how it is paramount 
that we ensure the climate at CENTCOM is improved and that 
better safeguards are in place.
    I believe these are exactly the types of issues that 
require serious scrutiny from the Oversight Committee, and I 
would like to thank the chairwoman again for her leadership and 
her interest in delving into this important topic today.
    [The prepared statement of Mr. Moulton can be found in the 
Appendix on page 23.]
    Mrs. Hartzler. Thank you, Mr. Moulton. Appreciate your 
comments.
    So I am pleased to recognize the witness on our first 
panel, the Honorable Glenn Fine, Acting Inspector General for 
the Department of Defense. So thank you for being here today 
and we welcome your opening statement.

  STATEMENT OF HON. GLENN A. FINE, ACTING INSPECTOR GENERAL, 
                     DEPARTMENT OF DEFENSE

    Mr. Fine. Good afternoon, Chairwoman Hartzler, Ranking 
Member Moulton, and members of the subcommittee. Thank you for 
inviting me to appear before you today to discuss the 
investigation by the Department of Defense Office of Inspector 
General into allegations that senior officials at CENTCOM 
falsified, distorted, delayed, or suppressed intelligence 
products related to its efforts to degrade and destroy ISIL 
[Islamic State of Iraq and the Levant].
    These were very serious and troubling allegations, and we 
devoted significant resources to investigating them. We 
assembled a multidisciplinary team of more than 30 DOD OIG 
employees to handle the investigation. Our team did conduct 
over 150 interviews of 120 witnesses, both inside and outside 
of CENTCOM.
    We examined in detail the specific intelligence products 
that were raised by the complainants and witnesses. In 
addition, we collected and reviewed a massive amount of draft 
and final intelligence products and emails produced by CENTCOM. 
We also interviewed intelligence officials in the DOD and the 
intelligence community for their assessments of CENTCOM's 
intelligence products.
    We did not stop there. We conducted an analytical review of 
a random sample of 140 CENTCOM intelligence products to 
determine whether there were significant changes related to the 
edits of these products and whether such changes indicated any 
trend or pattern of distortion with regard to the portrayal of 
ISIS and the Iraqi Security Forces as stronger or weaker. We 
also interviewed witnesses about the command climate in 
CENTCOM's intelligence directorate, and we reviewed command 
climate surveys.
    Finally, we examined in detail the management processes for 
producing intelligence products in CENTCOM to determine if 
there were deficiencies or weaknesses in need of improvement.
    Our full findings and conclusions are contained in a 542-
page classified report of investigation, which we have provided 
to this and other congressional committees. In addition, we 
prepared a 190-page unclassified report of investigation, which 
we publicly released.
    In short, our investigation did not substantiate the most 
serious allegation that intelligence was falsified. Similarly, 
we did not find systematic or intentional distortion of 
intelligence by CENTCOM's senior leaders or that the leaders 
suppressed or delayed intelligence products.
    However, we did find a troubling and widespread perception 
among many intelligence analysts that their leaders were 
attempting to distort the intelligence products. We also 
identified specific weaknesses and flaws in the CENTCOM 
management processes for creating intelligence products.
    We believe these deficiencies, such as ineffective 
communication and guidance, lack of adequate feedback, 
uncertainty about various policies, and the ambiguous status of 
DIA [Defense Intelligence Agency] analysts assigned to CENTCOM 
hindered the effectiveness and efficiency of CENTCOM 
intelligence processes and it affected the morale of the 
analytical workforce.
    We concluded that these practices related to intelligence 
products in CENTCOM could have and should have been better and 
that further improvements can be made. We therefore made 29 
recommendations that relate to the issues we investigated.
    Some of the most important recommendations were that 
CENTCOM should improve feedback, communication, and guidance 
between its leaders and the intelligence workforce. CENTCOM 
should update and maintain its standard operating procedures 
related to intelligence production.
    The relationship, reporting responsibilities, and 
intelligence requirements that apply to DIA analysts should be 
detailed and clarified in writing, and CENTCOM leaders should 
require that intelligence products consider analysis of 
alternatives.
    We also recommended that senior leaders in the responsible 
organizations review the report with regard to the overall 
performance of the individuals described. We believe that all 
29 recommendations are important and that they provide a useful 
roadmap for improving intelligence processes, not only in 
CENTCOM but throughout other combatant commands in the DOD.
    We also note that many of our recommendations are 
consistent with what the House of Representatives task force 
recommended. We therefore urge the DOD, DIA, and CENTCOM to 
take these recommendations seriously and to fully implement 
corrective action in response to the recommendations or to 
explain in detail why such corrective action is not necessary 
or warranted.
    We believe that such actions can further improve 
intelligence processes and reduce the risk that allegations 
such as the ones at issue in this report will arise in the 
future.
    Thank you for the opportunity to discuss our investigation 
with the subcommittee. That concludes my statements, and I 
would be glad to answer any questions.
    [The prepared statement of Mr. Fine can be found in the 
Appendix on page 25.]
    Mrs. Hartzler. Thank you very much, Mr. Fine. I appreciate 
your very good work.
    This is the unclassified version, and then with another 
500-page classified, you really have put a lot of effort into 
this. And there is a lot of things in here that we can learn 
from, and I guess that is my first question, because I have 
seen in other instances of the excellent work that is done by 
the DOD IG or the SIGAR [Special Inspector General for 
Afghanistan Reconstruction] offices, but the story seems to 
never continue after the report is issued.
    So can you please tell me your responsibilities after you 
released your report, and is there anyone that ensures your 
recommendations are implemented?
    Mr. Fine. Yes. We typically take follow-up action to 
inquire from the responsible organizations what they intend to 
do with regard to our recommendations. We want specific details 
about whether they agree or disagree and whether they concur 
with the recommendations or whether they intend to implement 
other things to address the intent of the recommendations.
    We then follow up with them. We ask them for documents and 
verification that they have actually implemented those 
recommendations, and in many cases, we often go back and test 
to verify that they have actually done that. These are 
important recommendations. We intend to do that. We intend to 
follow up with them and we intend to ensure that they take 
corrective action or explain why they don't intend to.
    Mrs. Hartzler. So is the follow-up actions, is that made 
public too?
    Mr. Fine. Sometimes it is. It depends if we do a follow-up 
report. We do make public our follow-up actions. Often we 
provide in our semiannual reports the status of unimplemented 
recommendations, so we do that as well. And sometimes--and we 
are happy to provide the committee with information on the 
status of those recommendations as time goes on as well.
    Mrs. Hartzler. That sounds good. So this report you issued 
was January 31, 2017. Is that right?
    Mr. Fine. Yes.
    Mrs. Hartzler. So when will you go back and check and see 
that they are following up on the recommendations? About what 
is the timeframe?
    Mr. Fine. We normally give them a little time. I would say 
they average about 60 days or so for them to determine what 
they intend to do, and then we periodically follow up after 
that as well, periodic time periods, depending on the 
recommendation itself.
    Mrs. Hartzler. So how has CENTCOM and other agencies 
responded to the report recommendations, and do you assess that 
they are willing or reluctant to pursue the changes that you 
suggest?
    Mr. Fine. Well, when we issued the report, they indicated 
they thought it was a thorough report, and they thought that 
particularly DIA, for example, said that this made useful 
recommendations, thoughtful recommendations. They have not 
responded specifically to each recommendations, and we want 
that, and we intend to follow up with them.
    But in general, the reaction has been generally positive, 
but the proof is in the pudding. We want to see exactly what 
they intend to do with regard to each specific recommendation.
    Mrs. Hartzler. I think it is very important to pursue the 
follow-up, and I look forward to your continued look at this 
and what you find out.
    So I turn to the ranking member for questions.
    Mr. Moulton. Thank you, Madam Chairwoman.
    First of all, Mr. Fine, I share Chairwoman Hartzler's views 
of the quality of your report, the importance of it, and it 
gives us a lot of confidence to know that such good work is 
being done. I also share her concerns that the recommendations 
actually be implemented, and so that is very important.
    Sort of looking even further into the future, if there 
were, here or elsewhere, an active attempt to manipulate 
intelligence analysis sometime in the future, do we have 
adequate protections in place to guard against that from ever 
occurring?
    Mr. Fine. I think we do. I think that there is the 
opportunity to make those complaints known and that there are 
entities within the Department of Defense that will look into 
that, including us. As you saw, we took these allegations very 
seriously and conducted an exhaustive investigation.
    We do think that there can be additional actions that can 
be taken, including clarifying the relationship of the analysts 
at CENTCOM to DIA, improving the training, and guidance, and 
oversight, increasing standardized operating procedures, and 
also a recommendation to explain and identify the function of 
the ombudsperson who can be an outlet for these kinds of 
concerns, if analysts have them.
    So I do think there is that opportunity, but there can be 
improvements made to those processes.
    Mr. Moulton. This issue with the ambiguity of the DIA 
analysts' roles at CENTCOM seems to be one of the specific 
examples you cite as a real issue here. Can you just give us an 
example or a little bit more clarity into exactly how that 
played out.
    Mr. Fine. It played out by some of the analysts not knowing 
what analytical standards applied to them, whether ICD 
[Intelligence Community Directive] 203, 206, 208 applied to 
them; not knowing who exactly they worked for; not knowing 
various, you know, operating procedures and what their reports 
were--and what the intent of their reports were. I think it 
needs to be clarified exactly what kind of training they 
receive, who they are working for, what kind of certifications 
they need to have, and what their exact relationship is to the 
combatant command, as well to DIA.
    We found some ambiguity about that, not only among the 
analysts but the senior leaders we talked to as well, not even 
knowing for sure whether the intelligence community directives 
applied to them. So that is concerning to us, and there needs 
to be more clarity in writing and documented, including the 
standard operating procedures that they have; that needs to be 
clarified.
    Mr. Moulton. So there clearly are some process improvements 
that need to be made, but part of this is also just command 
climate. And you addressed that in your report as well. Has the 
IG received any similar complaints of command climate issue or 
poor process issues at other COCOM [combatant command] J-2s 
[intelligence directorates]?
    Mr. Fine. I can't say whether we have never received any 
other complaints, but we have never received anything like this 
in terms of the intensity and the number and the concern that 
we have had. So this was unusual. It was very unusual.
    Mr. Moulton. And Mr. Fine, my final question is, do you 
have any plans to share the recommendations of your findings 
with other COCOM J-2s so that this kind of thing does not 
happen elsewhere in the future?
    Mr. Fine. Well, we have made the recommendations known, 
publicly released them, gave them to the Department, gave them 
to the DIA. I think the DIA, as well as the Department itself, 
ought to make sure that others are aware of this, and they can 
provide, as I say in my opening statement, a useful roadmap for 
others as well.
    I think that is one of the important things that needs to 
be done, not solely for folks here on CENTCOM, but to have 
others look at this as well to see whether there are process 
improvements that they need to make in other combatant commands 
as well, as well as throughout the DOD and the DIA.
    Mr. Moulton. Thank you again for your work.
    Mrs. Hartzler. Thank you very much.
    We are voting right now, so we are getting ready to recess 
here, but just based on the former conversation, I just want to 
let everybody know there is a second panel. And we do have 
representatives of the DIA and CENTCOM and the Office of Under 
Secretary of the Defense, Intelligence, and the Joint Staff 
that will be testifying next.
    So I hope everyone will be able to come back, and we will 
finish our questioning with Mr. Fine, but then we will get 
their response as well. So I call a recess until after votes. 
Thank you.
    [Recess.]
    Mrs. Hartzler. We will reconvene. We appreciate your 
patience while we were voting, but thank you very much for 
waiting. I know there may be some other members here, but I did 
have another question for you before our second panel.
    In your opening statement, you said that you did find that 
they distorted the products, that they didn't falsify but you 
used the word that they distorted, or did I misunderstand you?
    Mr. Fine. Yeah, we found that they did not systematically 
distort or intentionally distort the products or suppress or 
delay. We did find a perception of that and we found processes 
that needed improvement, but we did not find systematic or 
intentional distortion.
    Mrs. Hartzler. And when you were conducting this 
investigation, where did the burden of proof lie? Did the 
CENTCOM leadership need to show they didn't manipulate the 
intelligence, or did the whistleblowers need to show the 
CENTCOM leadership did manipulate it?
    Mr. Fine. We didn't have a burden of proof. We didn't apply 
that burden of proof. We just wanted to see what the facts 
showed and what the evidence showed, and then we reached our 
conclusions based upon that.
    So if we would have found that there was distortion, we 
would have said that, but we didn't find that. So we tried to 
do a thorough and objective review and come to the conclusions 
that we thought were warranted.
    Mrs. Hartzler. Okay. Very good.
    Do you have any further questions, Mr. Moulton?
    Mr. Moulton. No, Madam Chairwoman.
    Mrs. Hartzler. Okay. I think there was some members that 
had some questions, but they are not back yet, and we have had 
our second panel waiting very long, so I think we will conclude 
this first section.
    But thank you very much, Mr. Fine, for your fine work--no 
pun intended--and we look forward to following up with you and 
seeing what you find in the future as far as how well the 
departments follow your recommendations. So thank you very 
much.
    Mr. Fine. Thank you.
    Mrs. Hartzler. We will welcome our second panel, and thank 
you for your patience in waiting. We very much appreciate your 
involvement in our hearing, and I look forward to hearing what 
you have to share.
    For our second panel, we have Major General James Marrs, he 
is Director of Intelligence for the Joint Staff; Major General 
Mark Quantock, Director of Intelligence for U.S. Central 
Command; Mr. Jacques Grimes, Director of Defense Analysis for 
the Office of the Under Secretary of Defense for Intelligence; 
and Mr. Neil Wiley, Director of Analysis for the Defense 
Intelligence Agency.
    So I understand the Department of Defense has submitted a 
single written statement, but I will turn to each of you for 
any opening remarks that you wish to make, so General Marrs.
    [The joint prepared statement of General Marrs, General 
Quantock, Mr. Grimes, and Mr. Wiley can be found in the 
Appendix on page 36.]

     STATEMENT OF MAJ GEN JAMES MARRS, USAF, DIRECTOR FOR 
                   INTELLIGENCE, JOINT STAFF

    General Marrs. Thank you Chairwoman Hartzler, Ranking 
Member Moulton, and members of the committee. I appreciate the 
opportunity to offer testimony on the Department of Defense 
Inspector General report ``Investigation on Allegations 
Relating to USCENTCOM Intelligence Products.''
    I am pleased to be here today with my other colleagues at 
the table to share my perspective, both as a producer of 
intelligence and as a representative of the combatant command 
J-2s. Other than CENTCOM, of course, who is most ably 
represented by Major General Mark Quantock to my left.
    I echo my colleagues' sentiments, and you will hear more of 
that shortly, regarding the important work done by the DOD IG 
and the House Joint Task Force. Both reports remind us of the 
vital and complex responsibilities entrusted to intelligence 
professionals within our joint force. Continual improvements in 
analytic standards and processes are necessary to ensure 
intelligence products continue to be of the highest quality, 
objectivity, and integrity.
    Let me comment first on the Joint Staff J-2, a unique team 
that is both part of the Joint Staff and the Defense 
Intelligence Agency. Our J-2 mission is to provide the 
chairman, the Secretary of Defense, and senior joint force 
leadership with decision-quality intelligence that is relevant, 
accurate, and unbiased.
    Doing that work well depends on a high-quality team of 
intelligence professionals, and within the context of today's 
hearing, emphasis on two key ingredients: First is a workforce 
steeped in the elements of good analytic tradecraft. The 
programs and processes that will be outlined by Mr. Grimes and 
Mr. Wiley serve as the foundation of that tradecraft. We build 
upon that in the Joint Staff J-2 with our own local training 
and collaborative relationships to ensure the best application 
to our mission.
    The second ingredient is the responsibility I, and my 
leadership team, have every day to create an environment where 
even in the most pressure-packed situations, dissent and candor 
are encouraged as we shape our intelligence assessments.
    While I, as the J-2, am ultimately responsible for the 
quality of those assessments, this is a team sport of the 
highest stakes for our national security and one that only 
works at its best when communication and collaboration are 
strong.
    As for my J-2 colleagues across the combatant commands, 
they and their teams face a very similar mission and set of 
challenges as they support their four-star commanders and 
combatant command joint force. They are very aware of today's 
hearing and the important work done by the DOD IG and the House 
Joint Task Force and are looking at this as a near-term 
opportunity to focus on the aspects of our tradecraft and 
operating environment that are vital to mission success.
    I look forward to your questions.
    Mrs. Hartzler. Thank you.
    General Quantock.

      STATEMENT OF MG MARK R. QUANTOCK, USA, DIRECTOR OF 
               INTELLIGENCE, U.S. CENTRAL COMMAND

    General Quantock. Yes, ma'am. Chairwoman Hartzler, Ranking 
Member Moulton, and members of the committee, thank you for the 
invitation ----
    Mrs. Hartzler. Is your microphone on?
    General Quantock. Yes, it is. Okay. Now. I am sorry.
    Chairwoman Hartzler, Ranking Member Moulton, and members of 
the committee, thank you very much for the invitation to offer 
testimony on the IG report.
    First, I would like to acknowledge the breadth of the 
investigation and appreciate the efforts of both the IG and the 
Joint Task Force on CENTCOM Intelligence Analysis. The IG 
report provided thoughtful recommendations on ways to make 
improvements within the command, and we are taking those on as 
well as those from the Joint Task Force [JTF].
    Of the 29 DOD IG recommendations, and the 4 from the JTF 
report, I view CENTCOM J-2--and that would be me--as the lead 
for implementation, certainly for CENTCOM. We have developed an 
aggressive action plan, which we are currently executing.
    To be clear, some of these actions are new initiatives, but 
many are actions that have already been implemented, indeed 
were implemented many months ago. But as with any action that 
involves leadership, communications, or training, the initial 
implementation is the easy part. Sustainment over time is the 
real challenge, a challenge that we readily accept at CENTCOM.
    We look forward to working with USDI [Under Secretary of 
Defense for Intelligence] and DIA in developing and 
implementing tradecraft and production standards to ensure our 
commanders and the Nation's policymakers receive the very best 
intelligence support.
    Thank you.
    Mrs. Hartzler. Thank you, General.
    Mr. Grimes.

  STATEMENT OF JACQUES T. GRIMES, DIRECTOR, DEFENSE ANALYSIS, 
   OFFICE OF THE UNDER SECRETARY OF DEFENSE FOR INTELLIGENCE

    Mr. Grimes. Good afternoon, Chairwoman Hartzler, Ranking 
Member Moulton, and members of the committee. Thank you for the 
invitation to offer the testimony of the Department of Defense 
on the inspector general report, ``Investigation on Allegations 
Relating to USCENTCOM Products.''
    I am Jacques Grimes, Director of Defense Analysis and 
Partner Engagement, and I represent the Under Secretary of 
Defense for Intelligence. My role is to oversee defense 
analysis and to set a policy foundation that empowers defense 
analytic components to produce high-quality, relevant, 
effective analysis.
    The Department is indeed impressed with the inspector 
general's investigation, and we appreciate the opportunity that 
it gives us to discuss the steps we are taking to improve 
intelligence analysis across the defense intelligence 
enterprise.
    We in the Department hold ourselves to the highest 
standards, and we take great pride in the exceptional 
intelligence professionals who support the full spectrum of DOD 
intelligence customers from the President of the United States 
to the soldier in the field. Every day, thousands of our 
intelligence professionals across the globe tirelessly provide 
insight and analysis without politicization.
    Our commitment is and always will be to provide unvarnished 
intelligence and key assessments into the myriad of challenges 
facing our country every day. But we recognize that we can be 
better, and we are getting better. We are studying the 
inspector general's recommendations closely, and we are 
identifying specific actions that we can take now to address 
them.
    We will use the recommendations in concert with our already 
ongoing actions to build a strong foundation for high-quality 
objective defense intelligence analysis. For example, in 
November 2016, the Under Secretary of Defense for Intelligence 
signed out a new policy titled ``Management and Oversight of 
DOD All-Source Analysis,'' which assigns the role of the 
functional manager for DOD all-source analysis to the Defense 
Intelligence Agency and extends intelligence community analytic 
standards to all DOD intelligence analytic organizations, 
including the combatant commands.
    I co-chair, along with my colleague from the Defense 
Intelligence Agency, the Defense Analytic Tradecraft Council, 
which serves as a forum for advancing analytic integrity and 
tradecraft standards across the defense intelligence 
enterprise.
    The Under Secretary of Defense for Intelligence also 
sponsored the first ever analytic objectivity symposium in 
September 2016 that brought together expert speakers from 
academia, finance, accounting, medical research, and law 
enforcement to discuss measures for reducing bias and 
politicization in analysis.
    While these steps were initiated without specific reference 
to the inspector general's investigation at CENTCOM, they align 
with many of the IG's recommendations. The steps we are taking 
have already established a firm foundation for DOD intelligence 
analysis. We very much look forward to continuing along this 
path to ensure that DOD analysis meets the highest standards of 
quality, objectivity, and integrity.
    Mrs. Hartzler. Very good. Thank you.
    Mr. Wiley.

STATEMENT OF NEIL R. WILEY, DIRECTOR, DEFENSE ANALYSIS, DEFENSE 
                      INTELLIGENCE AGENCY

    Mr. Wiley. Chairwoman Hartzler, Ranking Member Moulton, and 
members of the committee, I would like to join my colleagues in 
thanking you for the invitation to offer testimony on the DOD 
IG report.
    As the DIA director for analysis and the DOD functional 
manager for all-source analysis, I am responsible for the 
alignment, quality, and integrity of the analytic output at DIA 
to service intelligence centers in the combatant commands. We 
appreciate the DOD IG's thorough investigation and note that 
the investigation found no lack of integrity or lack of probity 
in the intelligence process.
    We in the analytic profession hold ourselves to a high 
standard, and when concerns are raised, it makes us all examine 
what we could do better going forward. At DIA, across the 
defense all-source analysis enterprise, and in partnership with 
USDI, we have been aggressively investing in initiatives to 
strengthen analytic tradecraft and analytic processes.
    While many of these efforts were initiated independently 
from and prior to the IG report, they align well with many of 
the recommendations contained therein. We have established the 
Defense Analytic Tradecraft Council to coordinate and implement 
analytic tradecraft and process improvements across the 
enterprise.
    Most noteworthy thus far have been the implementation of an 
enterprise-wide analytic ombudsman program and a common process 
for analytic product evaluations. We have expanded professional 
and analyst career education through the addition of a 10-day 
course for DIA analysts, offered both in the National Capital 
Region and at the combatant commands, stressing and exercising 
Intelligence Community Directive 203 tradecraft standards in 
analytic design.
    We also believe that rigorous certification is an essential 
component of a professional workforce and continue to implement 
and enhance the certified defense all-source analysis program 
to demonstrate attainment in analytic competence.
    We have already made considerable strides in implementing 
common analytic standards and practices across the enterprise, 
but the business of intelligence analysis is one of constant 
improvement. With our partners in USDI and across the 
enterprise, we will continue to develop, codify, and share best 
practices in intelligence tradecraft, process, and training.
    Our ultimate mission is to provide our warfighters and 
policymakers with defense all-source analysis of the highest 
insight, quality, and integrity. They deserve no less.
    Thank you.
    Mrs. Hartzler. Thank you. I am encouraged by your 
testimony. It sounds like already that you have made a lot of 
changes, and it can be defense-wide, the lessons learned from 
this incident. You talk about, Mr. Wiley, analytic ombudsman, 
common analytic standards for intelligence all across the DOD, 
career education.
    Mr. Grimes, you talked about the development of a council, 
standards, defense analytics, and a symposium that was held 
where experts looked at ways to measure. So I am very 
encouraged by this.
    And, General Quantock, my question is that the inspector 
general identified several issues having to do with poor work 
environment and climate at CENTCOM during a crisis period. So 
can you describe the specific actions that have been taken to 
improve the common climate at CENTCOM.
    General Quantock. Yes, ma'am. Thank you for the question.
    We have endeavored over the past really 18 months to 
continue to improve the climate in specifically in the CENTCOM 
J-2. And I think, just in terms of the numbers, that has beared 
out. So in the IG investigation, the way we have monitored this 
is through the use of several surveys.
    So the one that was called out in the IG report was the 
analytic integrity and standard survey, which did have an 
anomalous in the 15 percentage. It was much higher than other 
COCOMs. Since that time, and we just received the calendar year 
2016, where it went from a 41 percent, essentially 
dissatisfaction, down to 22 percent. That is an enormous 
increase.
    And when you look at that, you contrast that, and so in 
2015, it was 41 percent and then compared to a combatant 
command average of 23 percent. This past year, it has gone down 
to 22 percent as opposed to 25 percent for the COCOM average. 
We are actually under the COCOM average, which is a pretty 
marked increase.
    And that is really through a lot of programs that we have 
instituted, and this was really actually well before I got 
there and General Votel got there. So when it was recognized by 
the previous
J-2 command team that there--there were challenges. They did 
start to institute things like, you know, townhalls and 
interfacing with the analysts, and we have certainly continued 
that.
    So to be very specific, some of the things that are not new 
that they instituted that got the ball moving in the right 
direction were monthly townhalls. We have what is called a 
daily IFC, or Intel Fusion Center closeout, where the J-2 or 
the vice J-2 sits with all the analysts that are working the 
problems. It is usually anywhere between 25 and 50 of them. And 
we have a discussion of what has occurred that day in the 
fight, in the fights that we have at CENTCOM.
    Our vice J-2 has normal office hours where he will take--a 
couple times a week he'll go down to an office and events, 
which is the location where the bulk of our analysts are, and 
he will spend an hour and a half there and just interfacing 
with analysts or anyone in the J-2 that has an issue they want 
to talk to or bend the
J-2's ear on.
    We have had an open-door policy for some time. And the 
command climate that we also work very hard on is--and General 
Votel has been an enormous advocate for this, is he spends a 
lot of time with our analysts. He receives intelligence first 
thing in the morning through his read book.
    And what I will send in with that read book is a young 
analyst. And so it is a one-on-one between a four-star and a 
young analyst, and they get to answer the questions. And they 
do a magnificent job. I will tell you, I am very proud of the 
workforce that we have. They are magnificent professionals.
    And when he has a question, they will take that back to the 
JIOC [joint intelligence operations center], to the JIC [joint 
intelligence center], and they will work that question, and it 
will be an email from that young analyst to the four-star. And, 
you know, those of us on the chain of command also get cc'd so 
we know what the boss knows, but that has been very, very 
positive.
    What is new in terms of--since the new team has rolled in, 
is we do--it is normal leadership things where you have got 
outreach to the full team, not just the analysts but the full 
J-2 team, which is biweekly I will put out an update to the 
team in terms of what is kind of happening within the command.
    We have--the CENTCOM commander, General Votel, has daily 
addresses over the PA [public address] system where he tells 
about his travels and what is going on within the command. 
Very, very well received by the command.
    We have introduced walkabouts, where I will just frankly, 
again, just do normal leadership stuff of getting out there and 
mixing it up with our troops. I learn something every time I do 
that, and as I mentioned, it is a world-class workforce.
    Thank you.
    Mrs. Hartzler. Very good. Thank you. Ranking Member 
Moulton, do you have some questions?
    Mr. Moulton. Yes, Madam Chairwoman. Thank you very much. 
This is a question for General Quantock. One of the key 
findings in the DOD IG's report was that the leadership did not 
ensure operational reporting was necessarily from commanders on 
the ground was appropriately separated from analytical 
assessments. I am an operational guy myself. I think highly of 
commanders' views on the ground, but obviously they have a 
certain place in intelligence analysis. Can you talk about what 
you are doing to correct that particular issue?
    General Quantock. So I will tell you that in the 
intelligence field we need to take all the information in, 
always. We have to acknowledge that operational information, 
like other information, has its own biases, and we have to 
acknowledge that and incorporate that into our assessments.
    But properly if we have got, for example, when Mosul fell 
and before OIR [Operation Inherent Resolve] stood up, we had 
intelligence analysts, the intel guys normally do red. They do 
the threat. And so we were actually trying to report on 
friendly forces, and the team was working that. When we started 
to have friendly forces, U.S. forces come on the battlefield 
and start to make assessments about what was going on the 
battlefield, we have to take that in. That is right. It is 
appropriate, it is in accordance with ICD 203. It is just the 
right thing to do.
    And so, we have encouraged the use of all forms of 
information and intelligence, signals intelligence, human 
intelligence, open source intelligence, anything we can get. We 
just again have to weigh and acknowledge that there are biases 
and be aware of those.
    Mr. Moulton. And my understanding is that the issue was not 
that you weren't incorporating these different sources of 
intelligence, but that the biases weren't recognized. Is that 
correct?
    General Quantock. Well, I wasn't there in terms of the 
specifics of what was, how it was characterized, but looking 
forward, certainly that is one of the things that we are most 
cognizant of.
    Mr. Moulton. Great. Thank you very much.
    Mrs. Hartzler. Thank you so much. We have Representative 
Cheney.
    Ms. Cheney. Thank you very much, Madam Chairwoman. And 
thank you very much all of you for your service and for being 
here today.
    I wanted to just see if we could get a little more details 
about the mention sort of repeatedly about analytic standards 
and the lack of understanding on the part of some of the 
analysts about what standards were really applicable to them, 
and how has that changed, and specifically, how do the 
standards themselves, how are they implemented?
    And then secondly, give a little bit of specifics about the 
DIA engagement. I know one of the things that we have urged is 
that DIA really accept its responsibility as sort of overseer 
of the whole defense intelligence enterprise. And I would be 
interested to know specifically how that is manifesting itself 
on a day-to-day basis.
    General Quantock. If I may take it first, and then I will 
hand it over to my teammates. In terms of standards, because it 
was brought up I know in the testimony from the IG in terms of 
who do folks work for. I have made it very clear, and I know 
that DIA is supporting me on this, and we have had actually a 
session with other J-2s to make sure we are all in alignment 
with this.
    But analysts that are from DIA that work in combatant 
commands, work for the combatant commander. They work for the
J-2. What J-2s need to be cognizant of is the requirements that 
those analysts have for their professional development in terms 
of training and in terms of their advancement. And they have to 
make sure that that training and those experiences and 
exposures that they need are taken into account.
    And so in my townhalls with my folks, I have told them, I 
said, listen, let's make sure you understand it, that we work 
for the combatant command. It is no different, quite frankly, 
in terms of these loyalties is to say, hey, do I work for the 
Army or do I work for the combatant command? Well, the reality 
is I work for both, but I take my instructions from the tower, 
and the tower is at MacDill Air Force Base with General Votel.
    But like every service, I have to be aware of the 
requirements that the Army has of me, whether it is for firing 
a weapon or doing PT [physical training] test or whatever the 
standards I have to do. So it is really that both worlds. And 
that is really, it talks to, you know, what folks have to have. 
The saying I have with this whole thing is we did not have an 
intelligence integrity issue. We had communications, 
leadership, and training issues. That is exactly what the IG 
found in their 29 recommendations, and that is exactly what we 
are getting after.
    And part of our action plan, I have gone through it in 
depth, when you look at those 29 recommendations, you can put a 
training, a leadership, or a communications issue by every one 
of those recommendations. And so I acknowledge that, and we are 
getting after that, ma'am.
    Mr. Wiley. So if I may take the questions on DIA and 
commonality and standards, so intelligence community directive 
analytic standards do apply to combatant commands. That was 
reinforced recently by Under Secretary of Defense instruction 
in November that establishes that ICD standards do apply across 
the defense all-source analytic enterprise, so it is very clear 
that they do apply at the combatant commands.
    In terms of DIA's role in all-source analysis in the 
enterprise, I think I would characterize it in that we are 
interested in consistency, integrity, and probity of the 
analytic process, rather than interested in the actual analytic 
outcome. So in other words, the analytic line taken by the 
elements within the enterprise are the responsibility of the 
elements within the enterprise, the combatant command, JIOC, 
service intelligence centers, the applicants within DIA.
    The process by which they arrive at that analysis needs to 
have integrity, and we get that through common standards, 
common practices, and common execution. So with USDI and the 
rest of the enterprise, what we are focusing on now is 
establishing that common understanding of what standards are, 
what tradecraft practices are, and what the institutions and 
mechanisms for doing that are.
    So we mentioned earlier the Defense Analytic Tradecraft 
Council, that is the principal vehicle to bring all 16 members 
of the defense intelligence enterprise together to discussion 
tradecraft standards, establish consistent tradecraft 
standards, and then communicate those tradecraft standards. We 
also use that as the vehicle for establishing the ombudsman of 
the product review process.
    Ms. Cheney. Let me just ask, so is that a process that has 
just begun now as a result of what has happened and as a result 
of these reports, and was it the case that there wasn't sort of 
a consistent set of standards previously?
    Mr. Wiley. Yes. The Defense Analytic Tradecraft Council was 
revitalized. It was established some years back, but it had 
essentially lain dormant, so it was revitalized as a result of 
this situation, and we reestablished it to invigorate 
commonality and standards. And, again, that is what we 
recognized was necessary, was a vehicle to achieve greater 
consistency across the enterprise.
    Mr. Grimes. I just want to add that perhaps the chapeau, if 
you will, of the USDI's role in all of this, we develop policy, 
we conduct oversight, and we are advocates for defense analysis 
programs to include playing an integrator function across the 
defense intelligence enterprise. We have laid out four basic 
actions that we have taken already.
    First, the oversight and management of DOD all-source 
analysis in a DOD instruction. That applies to the entire 
defense intelligence enterprise and lays out the role of the 
functional manager for analysis, calls for a board of 
governors, a governance, if you will, structure for the defense 
intelligence enterprise.
    And we have three memos that the Under Secretary of Defense 
for Intelligence put out to the enterprise laying out six 
functional areas that are critical to defense analysis.
    And then finally, an all-source analysis certification 
program for certified analysts and how they can become 
certified across the enterprise.
    Ms. Cheney. Thank you.
    Mrs. Hartzler. Thank you, Representative. And I am very 
encouraged by the testimony that we received today.
    You clearly have taken this report very seriously and taken 
a lot of positive steps that will benefit not only CENTCOM, but 
it sounds like across all the combatant commands.
    And so this committee is dedicated to making sure that our 
warfighter has the best intelligence possible and the most 
positive environment possible for those who are committing 
their lives to this very important mission.
    So we look forward to working with the inspector general as 
he continues to follow up with you in the months ahead, but 
keep up the great work. We appreciate what you are doing, and 
this hearing is now adjourned.
    [Whereupon, at 5:02 p.m., the subcommittee was adjourned.]



      
=======================================================================




                            A P P E N D I X

                           February 28, 2017

=======================================================================

      



      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                           February 28, 2017

=======================================================================

  
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]  

      
    
    
    
                            <all>
</pre></body></html>
